Nos. 19-1231 & 19-1241
In The

Supreme Court of the United States
-------------------------- ♦ ---------------------------

FEDERAL COMMUNICATIONS COMMISSION, ET AL.,
v.

Petitioners,

PROMETHEUS RADIO PROJECT, ET AL.,

Respondents.
_____________________

NATIONAL ASSOCIATION OF BROADCASTERS, ET AL.,
v.

Petitioners,

PROMETHEUS RADIO PROJECT, ET AL.,

Respondents.

-------------------------- ♦ --------------------------

On Writs of Certiorari to the
United States Court of Appeals for the Third Circuit
-------------------------- ♦ --------------------------

BRIEF OF AMICI CURIAE
THE ABC TELEVISION AFFILIATES ASSOCIATION,
THE CBS TELEVISION NETWORK AFFILIATES
ASSOCIATION, THE FBC TELEVISION AFFILIATES
ASSOCIATION, AND THE NBC TELEVISION
AFFILIATES IN SUPPORT OF PETITIONERS
-------------------------- ♦ --------------------------

Mark J. Prak
Counsel of Record
Julia C. Ambrose
BROOKS, PIERCE, MCLENDON,
HUMPHREY & LEONARD LLP
150 Fayetteville Street
Suite 1700
Raleigh, NC 27601
(919) 839-0300
mprak@brookspierce.com

John Feore
Jason Rademacher
COOLEY LLP
1299 Pennsylvania Ave., NW
Suite 700
Washington, DC 20004
(202) 842-7800
jfeore@cooley.com

Counsel for Amici Curiae

Dated: November 23, 2020

THE LEX

GROUPDC

i 1050 Connecticut Avenue, N.W. i Suite 500, #5190 i Washington, D.C. 20036

TABLE OF CONTENTS
Page
TABLE OF AUTHORITIES ......................................iii
INTERESTS OF AMICI CURIAE ............................. 1
INTRODUCTION AND SUMMARY OF
ARGUMENT ............................................................... 3
ARGUMENT ............................................................... 5
I.

LOCAL MEDIA OWNERSHIP RULES
MUST REFLECT THE REALITIES
OF
THE
MODERN
MEDIA
MARKETPLACE ........................................... 5

II.

ANACHRONISTIC
OWNERSHIP
RULES POSE OBSTACLES TO THE
PRODUCTION OF LOCAL NEWS
PROGRAMMING
AND
EVEN
THREATEN THE VIABILITY OF
LOCAL TELEVISION STATIONS ............. 12
A.

Outdated ownership rules impede
broadcasters from achieving the
scale and scope necessary to
succeed in increasingly competitive
markets ................................................. 13

B.

Advertising revenues are declining
even as the costs of producing local
news programming increase ................ 17

C.

The ownership rule modifications
the Commission attempted to
make would have supported local
broadcasters’ attempts to remain
competitive
in
local
media
markets ................................................. 20

ii
D.

Real-world examples underscore
the importance of ownership rules
that facilitate, rather than
impede, economies of scale and
scope ...................................................... 27

III. THE THIRD CIRCUIT IGNORED
THE DETRIMENTAL EFFECT OF
ITS DECISION ON OWNERSHIP OF
BROADCAST OUTLETS BY WOMEN
AND MINORITIES ...................................... 31
CONCLUSION ......................................................... 34

iii
TABLE OF AUTHORITIES
Page(s)
CASES AND AGENCY DECISIONS
2014 Quadrennial Regulatory Review—Review
of the Commission’s Broadcast Ownership
Rules & Other Rules Adopted Pursuant to
Section 202 of the Telecommunications Act of
1996, Order on Reconsideration and Notice of
Proposed Rulemaking,
32 FCC Rcd. 9802 (2017) ............................. passim
Amendment of Sections 73.34, 73.240, and
73.636 of the Commission’s Rules Relating to
Multiple Ownership of Standard, FM, and
Television Broadcast Stations,
50 F.C.C.2d 1046 (1975) ........................................ 7
Consent to Assign Certain Licenses
from Red River Broadcast Co, LLC to
Gray Television Licensee, LLC,
34 FCC Rcd. 8590 (2019) ..................................... 27
FCC v. WNCN Listeners Guild,
450 U.S. 582 (1981) ............................................. 32
Pappas Arizona License, LLC,
28 FCC Rcd. 17048 (2013) ................................... 30
Withers Broadcasting Co.,
32 FCC Rcd. 3179 (2017) ..................................... 30
STATUTE
Telecommunications Act of 1996, Pub. L. No.
104-104, § 202(h), 110 Stat. 56 (1996) ........... 2, 3, 5, 7

iv
RULES
Sup. Ct. R. 37.3 ........................................................... 1
Sup. Ct. R. 37.6 ........................................................... 1
REGULATIONS
47 C.F.R. § 73.622 ....................................................... 6
47 C.F.R. § 73.3555 ..................................................... 6
OTHER AUTHORITIES
2010 Quadrennial Regulatory Review: Review
of the Commission’s Broadcast Ownership
Rules and Other Rules Adopted Pursuant to
Section 202 of the Telecommunications Act of
1996, MB Docket No. 09-182, Comments of
Lin Television Corporation (July 12, 2010),
https://ecfsapi.fcc.gov/file/7020522175.pdf ............... 15
2018 Quadrennial Regulatory Review: Review
of the Commission’s Broadcast Ownership
Rules and Other Rules Adopted Pursuant to
Section 202 of the Telecommunications Act of
1996, MB Docket No. 18-349, Comments of
Gray Television, Inc. (Apr. 29, 2019),
https://ecfsapi.fcc.gov/file/10430725728587/Co
mments%20of%20Gray%20Television%20in%
202019%20Quadrennial%20Review.pdf .................. 29
2018 Quadrennial Regulatory Review: Review
of the Commission’s Broadcast Ownership
Rules and Other Rules Adopted Pursuant to
Section 202 of the Telecommunications Act of
1996, MB Docket No. 18-349, Reply
Comments of TEGNA Inc. (May 29, 2019),
https://ecfsapi.fcc.gov/file/10529034256265/TE
GNA%202018%20Quadrennial%20Review%2
0Reply%20Comments%20(5-29-2019).pdf ....... 15, 28

v
2018 Quadrennial Regulatory Review: Review
of the Commission’s Broadcast Ownership
Rules and Other Rules Adopted Pursuant to
Section 202 of the Telecommunications Act of
1996, MB Docket No. 18-349, Comments of
the National Association of Broadcasters
(May 29, 2019), https://ecfsapi.fcc.gov/file/
10429077016730/2018%20NAB%20Quadrenni
al%20Comments%20and%20Attachments.pdf ....... 14
2020 Coronavirus Media Usage Study,
TVB (Apr. 2020),
https://www.tvb.org/Public/Research/2020Coro
navirusMediaUsageStudy.aspx ............................... 11
Alphabet Inc., Form 10-K for Fiscal Year
Ended Dec. 31, 2018 (Feb. 4, 2019),
https://www.sec.gov/Archives/edgar/
data/1652044/000165204419000004/goog10kq42018.htm ............................................................. 18
BIA Advisory Services, BIA’s Media
Access Pro Database, available at
http://www.biakelsey.com/data-platforms/
media-access-pro/ ...................................................... 29
Chris O’Dell, Over 200 OTT Services
Now Available in U.S. Market Alone,
Parks Associates (Aug. 13, 2018),
https://www.parksassociates.com/newsletter/
article/ca-aug2018....................................................... 8
Claudia Kienzle, BIA: 2018 TV Station
Revenue to Reach $27.68B,
TVTechnology (Apr. 30, 2018),
https://www.tvtechnology.com/news/bia-2018tv-station-revenue-to-reach-27-68b .......................... 18

vi
Congressional Research Service, R41458,
How Changes in the Economics of Broadcast
Television are Affecting News and Sports
Programming and the Policy Goals of
Localism, Diversity of Voices, and
Competition (Oct. 20, 2010),
https://www.everycrsreport.com/files/2010102
0_R41458_6c055f8400515c31a556c677d13466
063c684b24.pdf ................................................ 9-10, 17
Disney+’s Number of Subscribers Worldwide
from 1st Quarter 2020 to 4th Quarter 2020,
Statista (Nov. 2020),
https://www.statista.com/statistics/1095372/
disney-plus-number-of-subscribers-us/
#:~:text=Disney%2B%20subscriber%20numbe
rs%20worldwide%202020&text=The%20Walt
%20Disney%20Company%20reported,start%2
0of%20the%20fiscal%20year ...................................... 9
J.A. Eisenach & K.W. Caves, The Effects of
Regulation on Economies of Scale and Scope
in TV Broadcasting (2011) ....................................... 14
Lillian Rizzo, Local TV Sees Spike in
Viewers, Drop in Ads in Coronavirus Crisis,
The Wall Street Journal (Apr. 3, 2020).................... 11
Mark R. Fratrik, Ph.D., BIA Advisory
Services, The Economic Irrationality of the
Top-4 Restriction (Mar. 15, 2019) ............................ 19
National Association of Broadcasters
Leadership Foundation,
https://www.nabfoundation.org/programs/broa
dcast-leadership/ (last visited Nov. 23, 2020) .......... 33

vii
National Association of Broadcasters,
Television Financial Report: 2016 Industry
Business Report, Station Revenue, Expenses
and Profit (2016) ....................................................... 15
Nielsen DMA Rankings 2020 (2020),
https://mediatracks.com/resources/nielsendma-rankings-2020/ .................................................. 16
Number of Hulu’s Paying Subscribers in the
United States From 1st Quarter 2019 to 4th
Quarter 2020, Statista (Nov. 2020),
https://www.statista.com/statistics/258014/
number-of-hulus-paying-subscribers/ ........................ 9
Number of Netflix Paid Subscribers
Worldwide from 3rd Quarter 2011 to 3rd
Quarter 2020, Statista (Oct. 2020),
https://www.statista.com/statistics/250934/
quarterly-number-of-netflix-streamingsubscribers-worldwide/ ............................................... 8
Ooyala, State of the Broadcast Industry 2019
(Jan. 2019) .................................................................. 8
Penelope Muse Abernathy, University of
North Carolina Hussman School of
Journalism and Media, The Expanding
News Desert (2020),
https://www.usnewsdeserts.com/ ............................. 21
Pew Research Center, For Local News,
Americans Embrace Digital But Still
Want Strong Community Connection
(Mar. 26, 2019),
https://www.journalism.org/2019/03/26/forlocal-news-americans-embrace-digital-butstill-want-strong-community-connection/ ........ 10, 23

viii
Pew Research Center, How News Happens
(Jan. 11, 2010)........................................................... 22
Pew Research Center, Local News Is Playing
an Important Role for Americans During
COVID-19 Outbreak (July 20, 2020),
https://www.pewresearch.org/facttank/2020/07/02/local-news-is-playing-animportant-role-for-americans-during-covid-19outbreak/ ................................................................... 11
Pew Research Center, Newspapers Fact Sheet
(July 9, 2019), https://www.journalism.org/
fact-sheet/newspapers/ ............................................. 21
Sen. Maria Cantwell, U.S. Senate Committee
on Commerce, Science, and Transportation,
Local Journalism: America’s Most Trusted
News Sources Threatened (Oct. 2020),
https://www.cantwell.senate.gov/imo/media/doc/
Local%20Journalism%20Report%2010.26.20_4
30pm.pdf ........................................................... passim
Steven Waldman, Federal Communications
Commission, The Information Needs of
Communities (July 2011),
https://transition.fcc.gov/osp/increport/The_Information_Needs_of_
Communities.pdf..................................... 18, 23, 24, 26
US Senate Votes Financial Support for
Local Newspapers and Broadcast Outlets,
MercoPress (May 14, 2020),
https://en.mercopress.com/2020/05/14/ussenate-votes-financial-support-for-localnewspapers-and-broadcast-outlets .......................... 12

INTERESTS OF AMICI CURIAE1
Amici
Curiae
ABC
Television
Affiliates
Association, CBS Television Network Affiliates
Association, FBC Television Affiliates Association,
and NBC Television Affiliates (the “Affiliates
Associations”) are non-profit trade associations whose
members consist of local television broadcast stations
affiliated with each Association’s respective broadcast
television network. Collectively, the Affiliates
Associations represent more than 600 local television
stations in markets across the country. The Affiliates
Associations’ members are the backbone of local
television news production, making a substantial
contribution to educating and informing viewers
across the United States.
The Affiliates Associations have a strong interest
in the issues before the Court, because the Federal
Communications Commission’s local media ownership
regulations significantly constrain their members’
ability to compete fairly with numerous unregulated
new market entrants. The Commission has long
1 Pursuant to Rule 37.3, counsel of record for all parties
listed on the dockets have consented to the filing of this amici
curiae brief. Pursuant to Rule 37.6, counsel for amici curiae
confirm that no counsel for any party authored this brief in
whole or in part, and no one other than amici curiae and their
counsel made a monetary contribution to the preparation or
submission of this brief.

Undersigned counsel at Cooley LLP previously represented
Cox Media Group (“CMG”), a broadcaster and an intervenor
below and, by default, a Respondent here. CMG did not
participate on the merits below and informed this Court and all
counsel of record that it will not participate in this case.
Undersigned counsel does not currently represent CMG in this
case.

2
recognized that its rules are out of step with the
modern media landscape. It has attempted
repeatedly, over many years, to modernize or repeal
outdated rules that no longer reflect competitive
marketplace conditions, as Section 202(h) of the
Telecommunications Act of 1996 directs. And for
years, the decisions of a single, divided panel of the
Third Circuit Court of Appeals have stymied the
Commission’s efforts and prevented implementation
of its rule changes.
Consequently, local television broadcasters today
must structure their business operations to comply
with archaic ownership rules that are completely out
of sync with today’s vibrant, highly-competitive video
programming marketplace—rules that preclude, for
example, common ownership of a local television
station and a local newspaper in the same market.
Those anachronistic ownership rules place local
broadcasters at a decided competitive disadvantage
against other, largely unregulated providers of video
programming that are quickly coming to dominate
today’s complex, fast-evolving, highly competitive
media marketplace.
Outdated ownership constraints hamstring
broadcasters in their efforts to build viable, efficient,
and competitive local broadcasting businesses,
particularly in smaller markets. And these rules
ultimately constrain news production by the Affiliates
Associations’ member stations, depriving Americans
of one of the chief benefits of the FCC’s licensed
television broadcasting system. Unless the way is
cleared for the Commission to modernize the local
ownership rules as contemplated by Congress and
allow broadcasters to achieve efficiencies and
economies of scale made possible by consolidation,

3
many local broadcasters will suffer the same fate as
local newspapers, and citizens across the country will
lose access to local, trusted, objective news, weather,
emergency, and information programming.
INTRODUCTION AND
SUMMARY OF ARGUMENT
Back in 1975, the Commission forbade ownership
of a local newspaper and a local television station in
the same market, in order to promote competition.
How things have changed. Today, the newspaper
industry is all but dead; the video marketplace looks
nothing like it did in 1975; and the media landscape
would be unrecognizable to the Congress that, in
1996, directed the FCC to ensure that its local media
ownership rules reflect changing competitive
realities. The marketplace looks wildly different than
it did nearly seventeen years ago, too, when a panel
of the Third Circuit first rejected the Commission’s
attempts to modernize the ownership rules, as
Section 202(h) of the Telecommunications Act directs
the agency to do.
Despite that sea change, the FCC regulations that
govern ownership of media outlets in local markets
remain stuck exactly where they were decades ago.
Today, the Affiliates Associations’ members operate
under a newspaper/broadcast cross-ownership
prohibition that is essentially unchanged since 1975
and a local multiple ownership restriction that
originated in 1941. Those rules are relics of a bygone
era of limited local media competition, when there
were only three national broadcast networks and just
a handful of broadcast TV stations in most markets.
Back then, the Commission believed that competition,

4
localism, and viewpoint diversity were best served by
constraining common ownership of the relatively
limited number of local media outlets. Today’s media
marketplace is vastly different: There are hundreds,
maybe thousands, of video programming options, and
multiple platforms deliver video programming via
cable, satellite, and the Internet. Viewers can access
an almost infinite library of video programming
virtually whenever and wherever they choose.
Although the marketplace has transformed in
recent decades, local broadcasters’ essential, publicservice role has not changed: Through free, over-theair broadcasts, from the largest urban areas to the
most remote rural communities, stations create and
distribute national, state, and local news, weather,
public
affairs,
sports,
and
entertainment
programming, as well as essential public health and
emergency information. The coronavirus pandemic
has reinforced the critical importance of reliable
access to local and national news and information
programming via local broadcast television.
Television stations cannot fulfill that critical role,
though, if their businesses are unable to survive in
today’s rapidly changing, increasingly diverse, and
exceedingly competitive media marketplace. Like
every other business, the survival of local television
depends on economic viability. Stations that cannot
compete cannot survive, and broadcasters today face
competitors too numerous to count: cable
programmers, satellite services, online news and
programming providers, subscription video-ondemand platforms, video programming websites, and
many more. And the competitors on that list share a
key attribute: In marked contrast to television
broadcasters, most are free to operate in local markets

5
unconstrained by the FCC’s decades-old ownership
limits.
It is long past time for regulatory relief from
anachronistic ownership restrictions that make no
sense today. It is no exaggeration to say that the
modern video marketplace is the most vibrant the
world has ever seen, and it grows more competitive by
the day. Local television broadcasters cannot
maintain healthy, economically viable businesses in
that hyper-competitive marketplace if a single panel
of the Third Circuit is allowed to continue to unfairly
hamstring local journalism and freeze in place
ownership rules that, by its own admission, have not
reflected competitive marketplace conditions for
years.
ARGUMENT
I. LOCAL MEDIA OWNERSHIP RULES MUST
REFLECT THE REALITIES OF THE
MODERN MEDIA MARKETPLACE
Decades ago, Congress recognized that, in order to
ensure that local broadcasters can remain
competitive, and to promote localism and viewpoint
diversity, the rules governing local media ownership
must develop in sync with the changing media
marketplace. To that end, Section 202(h) of the
Telecommunications Act of 1996 directs the FCC to
review its local media ownership regulations
periodically to ensure that they reflect current
competitive conditions and to modify or repeal those
no longer in step with evolving marketplace realities.

6
For years, the Commission has attempted to do
just that. Its most recent effort, the 2017
Reconsideration Order,2 would have modified or
eliminated a host of long-outdated ownership
constraints:
It
would
have
repealed
the
3
Newspaper/Broadcast and Radio/Television CrossOwnership restrictions and modified the Local
Television Ownership Rule by doing away with the
“Eight Voices Test” and revising the “Top Four
Prohibition” to account for circumstances in which
rigid application of the prohibition is not in the public
interest.4 The Commission concluded that its 2017
rule changes would give local broadcasters and local
newspapers alike “a greater opportunity to compete
2014 Quadrennial Regulatory Review—Review of the
Commission’s Broadcast Ownership Rules & Other Rules
Adopted Pursuant to Section 202 of the Telecommunications Act
of 1996, Order on Reconsideration and Notice of Proposed
Rulemaking, 32 FCC Rcd. 9802 (2017) (Pet. App. (No. 19-241)
64a-310a).
2

3 Generally, the Newspaper/Broadcast Cross-Ownership
Rule prohibits the owner of a local television or radio station
from directly or indirectly owning, operating, or controlling a
daily newspaper in the same community. See 47 CFR
§ 73.3555(d).

Pet. App. 154a-161a. That Rule permits an entity to own
two television stations in a single Designated Market Area
(“DMA”) only if: (1) the digital noise limited service contours of
the stations (as determined by Section 73.622(e) of the FCC’s
rules) do not overlap; or (2) (i) at the time the application to
acquire or construct the station(s) is filed, at least one of the two
stations is not ranked among the top four stations in the market,
based on the most recent all-day (9 a.m. to midnight) audience
share, as measured by a qualifying audience ratings service; and
(ii) at least eight independently owned and operating, full-power
commercial and noncommercial TV stations would remain postmerger in the DMA. See 47 C.F.R. § 73.3555(b).
4

7
and thrive in the vibrant and fast-changing media
marketplace.”5
Several years have passed since the Commission,
after examining the changing marketplace, called for
significant changes to its local media ownership rules.
(In fact, the Commission determined those rules were
outdated not only in 2017, but also in 2006 and even
2002.) Yet the same rules remain in place today,
despite dating back decades: The current Local
Television Ownership Rule is more than twenty years
old, and the Newspaper/Broadcast Cross-Ownership
Rule was enacted 45 years ago.6 The Third Circuit’s
decision subjects local television stations to
ownership limits that originated years before the
Internet became widely available, before Facebook,
Google, and Netflix formed part of the media
landscape, and before Apple’s iPhone allowed tens of
millions of viewers to access video programming on
demand on handheld screens. Local broadcasters
remain relegated to a regulatory landscape calibrated
to a 1970s-era media marketplace that bears no
resemblance to today’s media environment.
In the nearly quarter-century since Congress
enacted Section 202(h), the video marketplace has
undergone significant, even transformative, change.
To say that the modern video marketplace is dynamic,
5 Pet App. 67a. Indeed, in markets with fewer than nine
television stations, the Local Television Ownership Rule is little
changed from the old “one-to-a-market” rule originally adopted
for radio stations in 1941.

See Amendment of Sections 73.34, 73.240, and 73.636 of the
Commission’s Rules Relating to Multiple Ownership of
Standard, FM, and Television Broadcast Stations, 50 F.C.C.2d
1046, 1075 (1975).
6

8
diverse, and highly competitive is a vast
understatement. No longer must viewers gather
around the living room television set at a
predetermined hour to watch the local evening news
or a favorite network prime-time show. Sources of
video programming have proliferated, and digital
technologies have transformed the ways in which
broadcasters and other video programming providers
deliver, and viewers consume, video content, as well
as the ways advertisers reach audiences. Today, video
programming is available from sources almost too
numerous to count, including traditional over-the-air
broadcast television stations, cable networks, social
media
sites,
direct-to-consumer
subscription
platforms, and a rapidly growing number of other
online video providers. Programming reaches viewers
over the air, via traditional cable and satellite
providers, and, increasingly, through so-called virtual
multichannel video programming distributors and
other Internet-based delivery platforms and services.7
Netflix has more than 195 million subscribers;8 Hulu

7 By 2018, more than 200 over-the-top services, which offer
programming to subscribers over the Internet, were available in
the U.S. See Chris O’Dell, Over 200 OTT Services Now Available
in U.S. Market Alone, Parks Associates (Aug. 13, 2018),
https://www.parksassociates.com/newsletter/article/ca-aug2018;
see also, e.g., Ooyala, State of the Broadcast Industry 2019 4 (Jan.
2019) (observing that “[s]ubscription and ad-supported OTT
services are steadily replacing traditional content delivery”).
None of those OTT competitors even existed in 1996, let alone in
1975.

Number of Netflix Paid Subscribers Worldwide from 3rd
Quarter 2011 to 3rd Quarter 2020, Statista (Oct. 2020),
https://www.statista.com/statistics/250934/quarterly-numberof-netflix-streaming-subscribers-worldwide/.
8

9
has more than 36 million;9 and Disney+ has nearly 74
million.10 Each of those platforms offers viewers an
almost unlimited menu of programming choices.
Never before has there been such an abundance of
video programming options for consumers, so many
screens on which to watch that programming, and
such flexibility in when and where to view it. Today,
viewers can watch their preferred programming live
or on demand, on the couch, in the car, on an airplane,
on traditional television sets and so-called smart TVs,
via Internet-connected devices like Roku and Apple
TV, and on smartphones, tablets, laptop computers,
and more. This is emphatically not the video
marketplace of 1975 or 1996—or even 2017.
Marketplace changes and increased competition
have placed enormous financial and operational
pressure on local broadcasters, but they have not
lessened the value of local television stations to their
communities.11 Broadcasters supply unique, trusted,
Number of Hulu’s Paying Subscribers in the United
States From 1st Quarter 2019 to 4th Quarter 2020, Statista
(Nov. 2020), https://www.statista.com/statistics/258014/numberof-hulus-paying-subscribers/.
9

10 Disney+’s Number of Subscribers Worldwide from 1st
Quarter 2020 to 4th Quarter 2020, Statista (Nov. 2020),
https://www.statista.com/statistics/1095372/disney-plus-numberof-subscribers-us/#:~:text=Disney%2B%20subscriber%20numb
ers%20worldwide%202020&text=The%20Walt%20Disney%20C
ompany%20reported,start%20of%20the%20fiscal%20year.

Even ten years ago, “[a]lthough viewership of local
television news programming continue[d] to decline, Americans
still rel[ied] more on broadcast television than any other media
source for local news and public affairs information.”
Congressional Research Service, R41458, How Changes in the
Economics of Broadcast Television Are Affecting News and
Sports Programming and the Policy Goals of Localism, Diversity
11

10
objective, locally-focused news, information, public
affairs, weather, traffic, sports, and emergency
programming
targeted
toward
their
local
communities that other video programming providers
simply do not and cannot replicate. Netflix and Hulu
may offer abundant libraries of on-demand content
and original entertainment programming, but
Birmingham residents who seek live coverage of
approaching tornados, parents in Greensboro who
need updated information about school closures or
rush-hour traffic delays, and viewers in Baltimore
hoping to learn about the city’s mayoral candidates
will turn to their local TV stations. And that is
unsurprising, given the close connection between
local broadcasters and the communities they serve:
“Perhaps the most basic function of local journalism
is to provide residents with news across a range of
topics in a way that helps them live their daily lives
and take part in the community.” Pew Research
Center, For Local News, Americans Embrace Digital
But Still Want Strong Community Connection 1 (Mar.
26, 2019) [hereinafter 2019 Pew Report].12
of Voices, and Competition 5-6 (Oct. 20, 2010) [hereinafter CRS
Report] (footnotes omitted), https://www.everycrsreport.com/
files/20101020_R41458_6c055f8400515c31a556c677d13466063c
684b24.pdf.
https://www.journalism.org/2019/03/26/for-local-newsamericans-embrace-digital-but-still-want-strong-communityconnection/. To be sure, digital sources of local news exist, but
local broadcast television remains an essential, if not
predominant, source for local news, public affairs, and
emergency information. See 2019 Pew Report, supra note 12, at
1 (“Even as the preference for digital delivery creeps up on that
for news via TV, local television stations retain a strong hold in
the local news ecosystem. They top the list of nine types of local
news providers, with 38% of U.S. adults saying they often get
news from a local television station.”).
12

11
That locally-focused programming has never been
more important or valuable than during the
coronavirus pandemic. From updates on the virus’
spread to school re-openings to indoor gathering
limits, viewers nationwide have tuned in to local
broadcast stations in even greater numbers for
timely, reliable, and fact-based news and information
about the COVID-19 crisis specific to their
communities. In a survey conducted in April 2020,
“nearly half of U.S. adults . . . named local news
outlets as a major source for COVID-19 news,” and
respondents reported “see[ing] local news outlets as
more credible sources of COVID-19 information than
the news media in general.” See Pew Research Center,
Local News Is Playing an Important Role for
Americans During COVID-19 Outbreak (July 20,
2020).13
In short, the importance of local programming is
indisputable, and it is particularly acute in times of
crisis—whether the crisis deals with public safety or,

13
https://www.pewresearch.org/fact-tank/2020/07/02/localnews-is-playing-an-important-role-for-americans-during-covid19-outbreak/. 2020 viewership data confirm the point. In March
2020, viewership of live, local news increased significantly
compared to the same time period in prior years. See Lillian
Rizzo, Local TV Sees Spike in Viewers, Drop in Ads in
Coronavirus Crisis, The Wall Street Journal (Apr. 3, 2020); see
also 2020 Coronavirus Media Usage Study, TVB (Apr. 2020),
https://www.tvb.org/Public/Research/2020CoronavirusMediaUs
ageStudy.aspx (reporting that “[l]ocal broadcast TV is #1 for
trust among” multiple demographics and that study respondents
“felt that broadcast TV news gave them the best information &
updates pertaining to the Coronavirus”).

12
as recent events highlight, public health.14 But the
ongoing availability of that programming is tied
directly and meaningfully to the viability of local
broadcast businesses. And that viability, in turn, is
tied, in today’s highly competitive marketplace, to
regulatory limits on ownership of local media outlets.
II. ANACHRONISTIC OWNERSHIP RULES
POSE OBSTACLES TO THE PRODUCTION
OF LOCAL NEWS PROGRAMMING AND
EVEN THREATEN THE VIABILITY OF
LOCAL TELEVISION STATIONS
More than three years have passed since the
Reconsideration Order concluded that outdated
ownership rules do not afford local TV stations
necessary
competitive
flexibility—including
opportunities to consolidate, maximize efficiency, and
coordinate operations and the production of news
programming that both data and experience show are
essential to broadcasters’ survival. Today, those
antiquated rules continue to govern the structure of
local television business operations. If the way is not
At the same time, the pandemic has created severe
financial challenges for local broadcasters. Like virtually
every business across the country, local broadcasters have
felt the economic impact of the coronavirus crisis.
Local advertising is the lifeblood of the local television business,
but as local economies have been devastated by
the pandemic, those advertising revenues have dwindled.
See, e.g., US Senate Votes Financial Support for Local
Newspapers and Broadcast Outlets, MercoPress (May 14, 2020),
https://en.mercopress.com/2020/05/14/us-senate-votes-financialsupport-for-local-newspapers-and-broadcast-outlets
(“[S]ome
local broadcasters have reported as much as a 90% loss in
advertising revenues. This year, NAB estimates advertising
losses for local TV and radio broadcasters will reach at least US
$3 billion.”).
14

13
cleared for modernized local ownership rules, local
broadcast journalism will almost certainly go the way
of local newspapers, and viewers in communities
across the country who rely on local television for
news, emergency, weather, traffic, and other locallyrooted and -produced programming will suffer.
A. Outdated
ownership
rules
impede
broadcasters from achieving the scale
and scope necessary to succeed in
increasingly competitive markets.
Broadcast television stations are critical sources of
news and information geared toward their local
communities, but they operate as businesses—and
like any other business, their continued operation
depends on economic viability. Simply put, local TV
stations cannot remain in business if they cannot
compete in today’s increasingly crowded and fastchanging marketplace that offers viewers nearly
unlimited news, information, and entertainment
programming, available on demand from myriad
sources, broadcast and non-broadcast alike. They
certainly cannot compete in an environment where
long-outdated ownership rules effectively force them
to fight with one hand tied behind their backs, as rival
video content providers and distribution services
grow their businesses without regulatory constraints
on the size and reach of their market presence.
Modernized ownership rules that fairly and
accurately reflect current marketplace dynamics, on
the other hand, would translate directly into
operational efficiencies that facilitate the production
of local news, public interest, emergency, and other
programming of greater quantity and quality. In
today’s hyper-competitive environment, economies of

14
scale and scope are more important than ever to the
viability of local television stations generally and
their local news operations in particular.15
If the regulatory updates adopted by the
Reconsideration Order remained in effect today,
broadcasters would be able to address financial and
operational challenges and generate efficiencies and
cost savings through, for example, consolidated
ownership and operation of multiple television
stations in a market, or a television station and a local
newspaper. The costs of investigating, creating, and
distributing local news could be amortized across
more than a single station in a given market. In turn,
such combined operations would position a
broadcaster to invest in and upgrade a station’s staff,
physical facilities, newsgathering equipment, and
more; can allow the production or expansion of local
news and information programming; and can support
faster and more accurate reporting on breaking news
and more in-depth reporting on significant public
events and issues, among other savings and
efficiencies.
Such operational efficiencies are vital to localism
and the continued production of high-quality local
news. Local news and information programming is the
See 2018 Quadrennial Regulatory Review: Review of the
Commission’s Broadcast Ownership Rules and Other Rules
Adopted Pursuant to Section 202 of the Telecommunications
Act of 1996, MB Docket No. 18-349, Comments of the National
Association of Broadcasters, at 60-61 & n.237 (May 29, 2019)
(citing J.A. Eisenach & K.W. Caves, The Effects of Regulation on
Economies of Scale and Scope in TV Broadcasting,
at 1-2 (2011)), https://ecfsapi.fcc.gov/file/10429077016730/
2018%20NAB%20Quadrennial%20Comments%20and%20Attac
hments.pdf.
15

15
backbone of local television stations’ businesses; it is
also exceedingly expensive to produce.16 It requires
substantial news personnel (researchers, writers,
fact-checkers, producers, news directors, editors,
videographers, reporters, anchors, meteorologists,
and engineers), costly equipment (street-level Doppler
weather radar systems, cameras, editing systems,
remote news trucks, and transmission systems),
physical facilities (including production studios and
news sets), and much more. Even in smaller markets,
broadcasters spend upwards of $1 million annually to
produce local news programming; in larger markets,
that figure can be as high as $15 million.17
See, e.g., Pet. App. 152a-153a (“[L]ocal news programming
is typically one of the largest operational costs for broadcasters;
accordingly, stations may find that common ownership enables
them to provide more high-quality local programming, especially
in revenue-scarce small and mid-sized markets.”); National
Association of Broadcasters, Television Financial Report: 2016
Industry Business Report, Station Revenue, Expenses and Profit,
tbls. 54, 60 & 81 (2016).
16

See, e.g., 2010 Quadrennial Regulatory Review: Review of
the Commission’s Broadcast Ownership Rules and Other Rules
Adopted Pursuant to Section 202 of the Telecommunications Act
of 1996, MB Docket No. 09-182, Comments of Lin Television
Corporation, at 2 (July 12, 2010) (estimating that “a station’s
robust local news operation costs between $1.3 million (small
market) to $8.2 million (midsize market) per year”),
https://ecfsapi.fcc.gov/file/7020522175.pdf; 2018 Quadrennial
Regulatory Review: Review of the Commission’s Broadcast
Ownership Rules and Other Rules Adopted Pursuant to Section
202 of the Telecommunications Act of 1996, MB Docket No. 18349, Reply Comments of TEGNA Inc., at 9 (May 29, 2019)
[hereinafter TEGNA Reply Comments] (“Since 2016, TEGNA
has spent an average of more than $245 million a year on the
production of news and other local content (including related
digital operations).”), https://ecfsapi.fcc.gov/file/105290342562
65/TEGNA%202018%20Quadrennial%20Review%20Reply%20
Comments%20(5-29-2019).pdf.
17

16
In smaller markets in particular, where there are
fewer revenue-generating opportunities, those
expenses are increasingly impossible for a single
station to shoulder. While broadcasters—and their
advertisers—in the nation’s largest market (New
York City) can reach nearly 7,000,000 television
households with their programming, a broadcaster in
the nation’s smallest market (Glendive, Montana)
reaches only 3,630.18 The import for local news
operations in smaller markets is obvious. To remain
viable, a station in Glendive that reaches fewer than
4,000 television households needs more sources of
revenue than a single television station can possibly
generate. The one-size-fits-all ownership construct
currently in place ignores the disproportionately
heavy financial and operational costs of providing
local news (and other) programming shouldered by
smaller market stations.
The obvious and straightforward solution would
be ownership of more than a single media outlet in a
market—a reality the Commission has acknowledged.
See, e.g., Pet. App. 146a-147a (concluding that
“common sense modifications” to the Local Television
Ownership Rule “will help local television
broadcasters achieve economies of scale and improve
their ability to serve their local markets in the face of
an evolving video marketplace”). Incurring the
significant
costs
of
producing
local
news
programming in many cases makes business sense
only if those costs can be spread across two or more
TV stations (or a television station and a newspaper,
See
Nielsen
DMA
Rankings
2020
(2020),
https://mediatracks.com/resources/nielsen-dma-rankings-2020/.
The country is divided into 210 local media markets, called
“Designated Market Areas,” by The Nielsen Company.
18

17
or a television station and radio station). Common
ownership of multiple local media outlets permits
cost-sharing, generates efficiencies (from, for
example, shared physical facilities and personnel),
and ultimately enables the production of a greater
quantity and quality of local programming, including
local news.
Because the Third Circuit has for years blocked
much-needed updates to the ownership rules, though,
that straightforward solution remains prohibited by
regulation that is out of step with today’s media
environment.
B. Advertising revenues are declining even
as the costs of producing local news
programming increase.
As the costs of producing and distributing local
news and other local programming continue to climb,
local broadcasters are simultaneously required to
navigate a media marketplace populated with
abundant other sources of programming that compete
with broadcast television for viewers—and for
advertising dollars.
Advertising has long provided the most significant
revenue stream used to fund the creation and
distribution of locally-focused programming.19 But
here too, the last twenty-five years have brought
remarkable changes, and the increasingly complex
and competitive video landscape has taken a toll on
local television stations, particularly those in smaller
A 2010 Report prepared by the Congressional Research
Service determined that broadcasters “traditionally have relied
upon advertising for more than 90% of their revenues.” CRS
Report, supra note 11, at 2.
19

18
markets. See, e.g., Steven Waldman, Federal
Communications Commission, The Information
Needs of Communities 74 (July 2011) [hereinafter
Information Needs] (noting that declines in local
television revenues have been “even sharper . . . in
smaller cities”).20
The growing prominence of online digital
platforms has prompted advertisers to shift dollars
away from traditional broadcast television to
Internet-based digital platforms and mobile outlets
(and cable and satellite providers). In fact, in 2018,
Google earned $116.3 billion in advertising
revenues;21 for that same time period, the broadcast
industry as a whole expected to earn a fraction of that
amount—$19.3 billion in over-the-air advertising and
digital revenues.22 More recent analyses confirm this
trend: “[T]he ad revenues that Google is projected to
earn this year will exceed the combined ad revenues
of all TV and radio stations in the country.” Sen.
Maria Cantwell, U.S. Senate Committee on
Commerce, Science, and Transportation, Local
Journalism: America’s Most Trusted News Sources
Threatened 3 (Oct. 2020) [hereinafter Cantwell

20 https://transition.fcc.gov/osp/inc-report/The_Information_
Needs_of_Communities.pdf.

See Alphabet Inc. Form 10-K for fiscal year ended Dec. 31,
2018, at 27 (Feb. 4, 2019), https://www.sec.gov/Archives/edgar/
data/1652044/000165204419000004/goog10-kq42018.htm.
21

22 See Claudia Kienzle, BIA: 2018 TV Station Revenue
to Reach $27.68B, TVTechnology (Apr. 30, 2018),
https://www.tvtechnology.com/news/bia-2018-tv-station-revenueto-reach-27-68b.

19
Report] (emphasis added).23 In fact, the Cantwell
Report found that local broadcasters’ advertising
revenues are down more than 40 percent since 2000.24
Local stations’ advertising revenues are stressed as
never before.
Those challenges are particularly acute in smaller
markets where there are fewer viewers and local
broadcasters compete for a smaller pot of available
advertising revenues. Especially in those markets,
the Reconsideration Order’s deregulation would have
helped. Consider the Commission’s adjustment to the
Top-Four Prohibition, ostensibly aimed at facilitating
ownership of two highly rated stations in the same
market. Operating two television stations in a market
does not cost twice as much as operating one; thus,
the additional advertising revenues generated by
local news programming aired on a second in-market
station (or shared across another commonly owned
local media outlet) can turn an unprofitable operation
into an economically viable one. The Third Circuit
panel
majority,
however,
foreclosed
such
consolidation, despite the Commission’s, and even the
panel’s own, years-long recognition that updates to
the local ownership rules are overdue.

https://www.cantwell.senate.gov/imo/media/doc/Local%20
Journalism%20Report%2010.26.20_430pm.pdf.
23

24 Id. at 2; see also Mark R. Fratrik, Ph.D., BIA Advisory
Services, The Economic Irrationality of the Top-4 Restriction 16
& fig. 10 (Mar. 15, 2019) (data underlying finding).

20
C. The ownership rule modifications the
Commission attempted to make would
have supported local broadcasters’
attempts to remain competitive in local
media markets.
1. If not for the Third Circuit panel’s secondguessing, local broadcast stations would have been
able to structure their businesses to leverage
efficiencies and cost savings generated by
consolidation over the last few years—years that have
seen the amount, variety, and sources of video
programming continue to proliferate, as local TV
broadcasters face ever greater challenges from largely
unregulated competitors. Lost opportunities for
television/newspaper combinations illustrate the
point. Had the Third Circuit properly affirmed
the Reconsideration Order, the long-outdated
Newspaper/Broadcast Cross-Ownership Rule would
have been eliminated, clearing the way for efficient
combinations of broadcast television stations and
often-struggling local newspaper businesses.
The decline of local newspapers is by now a
familiar fact, driven at least in part by the prevalence
of multiple other sources of news and information,
including cable news networks, Internet-based news
publications and platforms, and social media-based
news outlets, as well as classified advertising
competitors like Craigslist. Subscriptions to daily
newspapers peaked in 1984, with approximately
63.3 million in total circulation nationally, and
declined precipitously, to less than 28.6 million, in

21
2018.25 In many markets, local print newspapers have
all but disappeared. Just last month, the Cantwell
Report found that “200 counties nationwide have no
newspapers covering their communities;” “half of all
U.S. counties are down to just one” local newspaper;
and newspapers in multiple states have lost more
than seventy-five percent of their newsroom jobs since
2005.26 If current predictions hold, at the end of 2020
there will only be approximately “30,000 [newspaper]
newsroom jobs left nationwide.” Cantwell Report,
supra note 23, at 3. Those operational and newsgenerating declines are unsurprising given the rapid
decline in newspapers’ advertising and other
revenues: Newspaper advertising revenues peaked in
2005 at $49.4 billion and declined to just $14.3 billion
in 2018.27
If not for the prohibition on ownership of both a
newspaper and a broadcast station in a single
market—a prohibition that dates back more than four
decades—local television broadcasters would have
been the logical acquirers of the journalistic assets of
print newspaper businesses that struggled to remain

See Pew Research Center, Newspapers Fact Sheet (July 9,
2019) [hereinafter Pew Fact Sheet], https://www.journalism.org/
fact-sheet/newspapers/.
25

26 See Cantwell Report, supra note 23, at 3, 17-19, 23 (citing
Pew Fact Sheet, supra note 25, and Penelope Muse Abernathy,
University of North Carolina Hussman School of Journalism
and
Media,
The
Expanding
News
Desert
(2020),
https://www.usnewsdeserts.com/).

See Pew Fact Sheet, supra note 25. The Cantwell Report’s
findings are consistent: “[O]ver the past two decades, the local
newspaper industry has lost around 70 percent of its total
revenue.” Cantwell Report, supra note 23, at 3.
27

22
afloat amidst increased competition from other news
outlets. After all, local television broadcasters share
strong ties and meaningful relationships with the
same communities served by local newspapers,
aligning purposes across media and in favor of robust
production of local news, public affairs, emergency,
and other locally-directed content. Those synergies
have been in place, and recognized, for years, even as
the Commission’s cross-ownership rule prohibited
broadcasters from building on them.28
Instead of seeing local broadcast station-newspaper
combinations and a resulting buoying of localism,
hedge funds with no ties to local communities have
acquired those local newsroom assets, only to
immediately “gut[] content for the sake of short-term
profits.” Cantwell Report, supra note 23, at 4. Many
local newspapers have gone out of business, and the
broadcasters in those markets who were the most
obvious purchasers or partners of those endangered
newspapers have lost the chance to consolidate local
news operations. Newspapers have folded, many local
television stations continue to struggle, and viewers
in those communities have been, and continue to be,
deprived of multiple potential sources of genuinely
locally-focused news and information.
All is not lost, though, if the way is cleared for the
Commission’s 2017 rule updates to take effect.

As just one example, data developed more than a decade
ago by the Pew Research Center in a case study in Baltimore
showed that 95 percent of news stories containing new
information came from traditional local media outlets—i.e.,
print, local TV, or radio. See Pew Research Center, How News
Happens (Jan. 11, 2010); see also Cantwell Report, supra note 23,
at 8 (discussing same).
28

23
Despite sustained dire straits across the newspaper
industry, local newspapers (where they survive) have
remained the primary generators of original local
news reporting in many communities. See Cantwell
Report, supra note 23, at 8. In those markets where
local newspapers continue to produce and distribute
local news, combining operations with in-market
television stations could generate significant—
potentially business-rescuing—cost savings and
operational efficiencies, as broadcast television
remains “the most popular source for local news.”
Information Needs, supra note 20, at 76.29 In turn,
combined newsrooms, particularly in smaller
markets, would better position local news producers
to combat the growing market dominance of
unregulated online competitors. See Cantwell Report,
supra note 23, at 3; see also Information Needs, supra
note 20, at 82, 272–73 (noting several examples of
beneficial partnerships between local television
stations and newspapers and stating the “obvious”
conclusion that combining reach of local television
stations with newspapers’ reporting teams and
content “could vastly improve [television] service to
the[] community”). Viewers in those local
communities would be the ultimate beneficiaries of
those sorts of logical, efficient, and fruitful
broadcast/newspaper combinations, if they are
allowed to take effect before it’s too late—for the local
newspaper, the local television broadcaster, or both.
Nearly a decade ago, it was already anticipated
that the decline in local newspaper revenue would
See also 2019 Pew Report, supra note 12, at 2 (reporting
that 41 percent of U.S. adults prefer to get local news through a
television set).
29

24
“ripple through the entire local news economy,
prompting recalibrations among all media.”
Information Needs, supra note 20, at 11. Local
television broadcasters could have responded to those
marketplace challenges by building new businesses
around local newspaper assets, filling the
informational and journalistic hole left when those
newspapers failed. But the antiquated prohibition on
newspaper/broadcast cross-ownership has foreclosed
the most commonsense marketplace recalibrations in
the face of steadily increasing competition in local
media markets. Local newspapers, local television
stations, and the communities they serve are the
worse for it.
2. Broadcast-newspaper combinations are not the
only potential sources of operational efficiency that
the Third Circuit panel’s series of decisions have
foreclosed for far too long. The Reconsideration Order
also would have eliminated the anachronistic Eight
Voices Test, recognizing that it stands in the way of
broadcast combinations, particularly in smaller
markets, that would generate operational efficiencies
that correlate directly with increased production of
local news programming:
[T]he Eight-Voices Test denies the public
interest benefits produced by common
ownership without any evidence of
countervailing benefits to competition from
preserving the requirement. Furthermore,
these markets—including many small and
mid-sized markets that have less advertising
revenue to fund local programming—are the
places where the efficiencies of common
ownership can often yield the greatest

25
benefits. Our action in repealing the EightVoices Test will enable local television
broadcasters to realize these benefits and
better serve their local markets.
Pet. App. 152a (footnote omitted).
As the Reconsideration Order recognized, the
Eight Voices Test has long outgrown whatever utility
it might have had in promoting a multiplicity of
“voices”—that is, sources of news and information
content—available to viewers in local media markets.
Today, the Eight Voices Test constrains consolidation
of broadcast outlets in local markets based on the
number of pure broadcast “voices” that would remain,
wholly ignoring the proliferation of non-broadcast
sources of news and information readily available to
viewers in even the smallest of media markets.
Perhaps worse, the Eight Voices Test ignores the
fact that there are fewer than eight “independent,”
broadcast voices in many smaller markets across the
country as an initial matter. It goes without saying
that television stations operating in the largest
market (New York City) face very different
competitive conditions, and their viewers have access
to vastly more outlets for receiving local broadcast
news and other programming, as compared to
stations operating in the smallest market (Glendive,
Montana). The number of independent “voices” varies
dramatically between market 1 and market 210, yet
the Eight Voices Test reinstated by the Third Circuit
applies across the board, foreclosing local media
combinations in markets that might not have eight
“independent” broadcast voices to begin with—the
very markets where, as discussed above, consolidated
ownership of local media outlets is particularly

26
critical to preserving
operations.30

viable

local

broadcast

3. Finally, the Reconsideration Order would have
relaxed the (effectively unqualified) prohibition on
common ownership of two or more top-four-rated
stations in a market, concluding that the current “rule
may prohibit combinations that do not present public
interest harms or that offer potential public interest
benefits that outweigh any potential harms,”
particularly in smaller markets. Pet. App. 156a. The
Reconsideration Order’s rejection of a rigid “Top Four”
rule acknowledged the reality that “Big Four”affiliated broadcast stations are not necessarily
strong, viable stations in every market—particularly
in smaller markets, where the pool of available
advertising revenues is small and the costs of
producing original local news can be unsustainable
even for a stand-alone “Big Four” affiliate.
The Commission cited the benefits of consolidation
when it approved Gray Television’s request to acquire
NBC-affiliated KDLT-TV in Sioux Falls, South
Dakota, despite its ownership of ABC-affiliated
KSFY-TV in the same market. Applying the
Reconsideration Order’s now-vacated rule assessing
The Eight Voices Test wrongly presumes that anything
less than eight independent sources of programming in a single
market would disserve the core values of competition, viewpoint
diversity, and localism. That arbitrary number does not
inevitably ensure that viewers in any given market will have
access to more and higher-quality local programming. As an FCC
working group observed nearly a decade ago, “[m]ore is not
necessarily better,” because “consolidation [can] lead[] . . .
stations to be economically healthier and therefore more able to
invest in local journalism.” Information Needs, supra note 20, at
25.
30

27
top-four duopolies on a case-by-case basis, the
Commission concluded that Gray’s ownership of these
same-market stations would “produce definite,
verifiable, and transaction-specific public interest
benefits,” including the addition of “at least 28 hours
per week of local news programming” across both
stations, which is “more local news programming
than either station currently airs in an average
week.”31
In place of the Commission’s willingness to
analyze “Top Four” mergers on the unique
circumstances of each case, the Third Circuit panel
reinstated the rigid Top Four Prohibition. That rule is
out of step with today’s marketplace realities; it
forecloses consolidation of top-rated stations across
the board—i.e., even in markets where such
consolidation would further the provision of robust,
diverse, locally-focused broadcast programming.
D. Real-world examples underscore the
importance of ownership rules that
facilitate, rather than impede, economies
of scale and scope.
If a local station in a small or mid-sized market is
struggling to marshal the significant resources
needed to produce original local news programming,
the direct, tangible benefits of economies of scale and
Consent to Assign Certain Licenses from Red River
Broadcast Co, LLC to Gray Television Licensee, LLC, 34 FCC
Rcd. 8590, 8594 (2019). The Commission identified other
benefits of the top-four combination, including Gray’s plans to
open a news bureau in the state capitol “to provide better
coverage of state government” and to “install a state-of-the-art
weather radar that will enable it to provide more accurate
information about severe weather in the Sioux Falls market.” Id.
31

28
scope and operational cost-sharing could make the
difference between the production of valuable local
news programming or its complete elimination. In
some cases, achieving those economic and operational
efficiencies could determine whether the station
remains viable and on-air at all.
Take, for example, KTVD(TV), a MyNetworkTVaffiliated station in Denver. When broadcaster
TEGNA acquired the station more than a decade ago,
it produced no local news. Today, KTVD airs three
hours of local news every weekday, because of
TEGNA’S common ownership of station KUSA(TV),
the broadcaster’s NBC-affiliated station in Denver.32
TEGNA’s ability to own both KTVD and KUSA—and
to therefore consolidate operations (including a
shared studio) and recognize efficiencies and cost
savings, enabling KTVD to air local news
programming—was possible only because KTVD is
not among the four highest-rated stations in the
Denver market. Had KTVD been a “top-four” station,
the rule prohibiting ownership of two top-four-rated
stations in the same market would have barred
TEGNA from purchasing KTVD.
KTVD is a success story that occurred in spite of
the restrictive local ownership rules. The story of a
different station—KCWY(TV), Gray Television’s
NBC-affiliated station in Casper, Wyoming—
highlights the very different outcome that occurs
when current media ownership rules force a
broadcaster to choose between producing news or
turning a profit. KCWY is the only Big Four Networkaffiliated station owned by Gray in the Casper-

32

See TEGNA Reply Comments, supra note 17, at 10.

29
Riverton television market. In 2018, the station was
the top-rated and highest-grossing station in its
market, producing the market’s highest-rated
newscast and earning between 40 and 50 percent of
the market’s total advertising revenue. KCWY had
recently invested in upgraded news equipment,
including a new set and state-of-the-art weather and
newsroom systems.33 Despite its ratings success,
though, the station was not profitable, because the
advertising base in the station’s market—currently
ranked 199 of the country’s 210 television markets,
with only 43,760 television households—is simply too
small to support a stand-alone local television station
that produces its own local newscasts.34
Because the FCC’s local media ownership rules
precluded Gray’s consolidation and coordination with
a second station (or newspaper) in the market to
share the costs of local news production, KCWY was
forced to eliminate its local news programming in
January 2019. KCWY now imports “local” news from

See 2018 Quadrennial Regulatory Review: Review
of the Commission’s Broadcast Ownership Rules and Other
Rules
Adopted
Pursuant
to
Section
202
of
the
Telecommunications Act of 1996, MB Docket No. 18-349,
Comments of Gray Television, Inc., at 4-5 (Apr. 29, 2019),
https://ecfsapi.fcc.gov/file/10430725728587/Comments%20of%2
0Gray%20Television%20in%202019%20Quadrennial%20Revie
w.pdf.
33

34 In 2018, total over-the-air advertising revenue was only
$4.4 million for the entire market. Network-affiliated stations in
some of the country’s larger markets can generate that much
advertising revenue in only a matter of weeks. See id. at 5 (citing
BIA’s Media Access Pro database).

30
the Cheyenne market, several hours’ drive away,
where Gray owns a station.35
The comparison between the Denver and Casper
outcomes illustrates a larger point about the outdated
constraints imposed by the “one-size-fits-all”
ownership rules. Among the faulty assumptions
underlying the local media ownership rules are that
“Big Four” affiliates in every market are necessarily
strong, profitable stations that contribute news and
other valuable programming to the local market, that
healthy media markets of all sizes can support at
least eight independent “voices,” and that every
combination of stations or other media outlets would
mean less, rather than more, valuable local
programming being made available in each market.
In many cases, though, particularly in smaller
markets, even Big Four Network affiliates struggle to
produce original local news programming and, in
some cases, even to remain viable.36
35 Not coincidentally, Gray controls two Big Four Network
affiliations in the Cheyenne market: KGWN-TV has a CBS
affiliation on its primary channel and an NBC affiliation on a
multicast channel. Gray was able to add a network-affiliated
channel as a multicast stream—and benefit from the efficiencies
and cost savings of shared operations and program production—
only because the Cheyenne market did not have four full-power,
network-affiliated television stations.

Indeed, stations affiliated with one of the Big Four
Networks have begun failing in recent years. See Withers
Broadcasting Co., 32 FCC Rcd. 3179 (2017) (order granting
failing station waiver allowing Gray to acquire station
WVFX(TV) in the Clarksburg-Weston DMA, a FOX affiliate);
Pappas Arizona License, LLC, 28 FCC Rcd. 17048 (2013)
(granting failing station waiver allowing Blackhawk
Broadcasting to acquire station KSWT(TV) in the Yuma-El
Centro DMA, a CBS affiliate, despite absence of eight
independent “voices” in the market).
36

31
In recognition of this and other market-based
financial realities, the FCC in the Reconsideration
Order sought to change the local ownership rules to
better reflect the dynamic, highly competitive, and
fast-changing media marketplace. The Commission
recognized that local broadcasters’ ability to remain
viable participants in that ecosystem—and their
ability to continue to provide valuable local news and
other programming—turns on their ability to compete
against a growing array of largely unregulated video
programming providers. This is precisely the result
Congress desired. Nevertheless, the Third Circuit, as
it has for more than 15 years, prevented these longoverdue updates from taking root, substituting its
judgment for that of the expert agency and
maintaining archaic rules that competition long ago
rendered unnecessary.
III. THE THIRD CIRCUIT IGNORED THE
DETRIMENTAL EFFECT OF ITS DECISION
ON
OWNERSHIP
OF
BROADCAST
OUTLETS BY WOMEN AND MINORITIES
The Third Circuit panel did not question the
Commission’s assessment of the dramatic changes in
the local media landscape over the last several years,
nor did it find fault with the agency’s conclusion that
the ownership rules should be updated in response to
those changes.37 Instead, the panel majority rooted its
wholesale rejection of the Reconsideration Order in
what it viewed as inadequate data and analysis about
the impact of the rule changes on ownership of local
See, e.g., Opening Brief of the Industry Petitioners at 24,
FCC v. Prometheus Radio Project, No. 19-1231, National
Association of Broadcasters v. Prometheus Radio Project, No. 191241 (Nov. 16, 2020).
37

32
media outlets by women and minorities. See Pet App.
34a-42a. The panel’s substitution of its policy
preferences for the experience-based determinations
and predictive judgments of the expert agency is
legally erroneous. See, e.g., FCC v. WNCN Listeners
Guild, 450 U.S. 582, 596 (1981) (“[T]he Commission’s
judgment regarding how the public interest is best
served is entitled to substantial judicial deference”
because “the weighing of policies under the public
interest standard is a task that Congress has
delegated to the Commission in the first instance”)
(citations and internal quotation marks omitted).
Equally important, the Third Circuit’s singleminded focus on minority and female ownership
overlooks a very real, pragmatic, and imminently
predictable consequence of its decision: The rigid,
anachronistic rules now in place make it exceedingly
difficult for local broadcasters—and perhaps
impossible for those in smaller markets—to remain
competitive and even viable in today’s increasingly
crowded media marketplace, where the competition
for viewers and advertising dollars intensifies almost
by the day. Many, like Gray’s station in Casper, will
not be able to support local news programming
operations; other stations may fail altogether. And if
local broadcast businesses collapse and disappear
under the weight of competition from unregulated
market participants, so too do opportunities for
women and minorities to own those stations.
To be clear, local broadcasters are committed to
diversity. For two decades, the National Association
of Broadcasters Leadership Foundation has operated
its Broadcast Leadership Training Program, a tenmonth executive MBA-style program that educates
women and minorities about the fundamentals of

33
purchasing, owning, and operating successful radio
and television stations.38 Multiple broadcaster groups
sponsor that program and also offer outreach
initiatives to promote and encourage diversity in
hiring, training, and opportunity within their own
organizations. But industry efforts to promote
diversity in broadcast ownership and leadership will
be for naught if local television stations cannot
succeed because they cannot remain competitive.
Whatever data reflecting media ownership by
women and minorities might be available, and
however that data might be analyzed as the
Commission reassesses its local media ownership
rules every four years, the rules in place today—
attributable to the Third Circuit’s repeated secondguessing of the Commission’s expert assessment of
the competitive landscape—inevitably disserve
female and minority ownership, because local
stations
cannot
provide
successful
career
opportunities—to women, minorities, or anyone
else—if their businesses can no longer remain healthy
and economically viable. All local broadcasters,
including women and minorities, remain at a
competitive disadvantage in today’s evolving
marketplace.
Unless the Commission is allowed to make
predictive judgments and critically needed updates to
its local media ownership rules, as Congress directed,
without judicial second-guessing, it is only a matter of
time before many local television stations go the way
of local newspapers. No ownership opportunities for
See National Association of Broadcasters Leadership
Foundation,
https://www.nabfoundation.org/programs/broad
cast-leadership/ (last visited Nov. 23, 2020).
38

34
women, minorities, or anyone else will be available if
local media outlets cease to exist.
CONCLUSION
For the foregoing reasons, the decision of the
United States Court of Appeals for the Third Circuit
should be reversed.
Respectfully submitted,
Mark J. Prak
John Feore
Counsel of Record
Jason Rademacher
Julia C. Ambrose
COOLEY LLP
BROOKS, PIERCE,
1299 Pennsylvania Ave., NW
MCLENDON,
Suite 700
HUMPHREY &
Washington, DC 20004
LEONARD LLP
(202) 842-7800
150 Fayetteville Street jfeore@cooley.com
Suite 1700
Raleigh, NC 27601
(919) 839-0300
mprak@brookspierce.com
NOVEMBER 23, 2020

